AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 20X
AHMED ALI MUTHANA,
Petitioner,
v.
ANTONY J. BLINKEN, et al.,
Respondents.
X

STATE OF NEW YORK
)
COUNTY OF NEW YORK )
I, Julian Hadiz, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 16th day of June 2021,1 served the within Petition for Writ of
Certiorari, Motion for Leave to File a Sealed Supplemental Appendix and Sealed
Supplemental Appendix in the above-captioned matter upon:
Elizabeth B. Prelogar, Acting Solicitor General
United States Department of Justice
Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, DC 20530
(202)514-2217
supremectbriefs@usdoi.gov
by sending three copies of the Petition and one copy each of the Motion and
Sealed Supplemental Appendix, addressed to each individual respectively, and enclosed
in a properly addressed wrapper, through the United States Postal Service, by Express
Mail, postage prepaid. An electronic version was also served by email to each individual.
That on the same date as above, 1 sent to this Court forty copies and 1 un-bound
copy of the within Petition for a Writ of Certiorari and eleven copies and 1 un-bound
copy of each of the Motion and Sealed Supplemental Appendix through the United States
Postal Service by Express Mail, postage prepaid.

All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 16th day of June 2021.

Julian Hadiz

Sworn to and subscribed before me
16th day of June 2021.

MARIA MAISONET
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2025

